              U.S. Department of Energy
              Office of Inspector General
              Office of Audit Services




Audit Report

Management Controls over
Selected Facility Contractor
Travel Expenses




OAS-M-07-03                                 April 2007
                                  Department of Energy
                                       Washington, DC 20585
                                          April 26, 2007

MEMORANDUM FOR THE PRINCIPAL DEPUTY ADNLINISTRATOR, NATIONAL
                NUCLEAR SECURITY ADMINISTRATION AND CHIEF
                WERATING OFFICER, OFFICE OF SCIENCE

FROM:
                          Assistant Inspector General
                           for Financial, Technology and Corporate Audits
                          Office of Inspector General
                          INFORMATION: Audit Report on "Management Controls over
                          Selected Facility Contractor Travel Expenses"


BACKGROUND

The Department of Energy (Department) relies on contractors to manage and operate its major
I'acilities. Management contractors' business-related travel, which includes domestic and
international trips to and from field sites to attend meetings and conferences and to perform
research, represents a significant cost to the Department. In Fiscal Year (FY) 2006 contractors
took over 192,000 trips and incurred total travel related costs of approximately $154 million.

Prior revlews have disclosed problems with contractors' travel costs such as travelers not
reducing per diem rates for meal costs included in conference fees, improperly categorizing
trips and taking trips that were of questionable value to the Department. Because the
Llcpartmenl has experienced problems in the past, we conducted this review to determine
whether selected contractors were effectively managing domestic and foreign travel and related
expenses.

RESULTS OF AUDIT

Our work at the Oak Ridge National Laboratory (Oak Ridge), BWXT Y- 12 (Y- 121, and Sandia
National Laboratories (Sandia) disclosed that, at these sites, internal controls over contractor
11-avelwere generally adequate and travel expenses were reasonable. Based on an evaluatiori 01
632 trlps across these three contractor sites, we determined that controls related to review of
supporting documentat~onand approval of expense vouchers were functioning effectively.
Overall, we noted that travel management procedures were generally efficient and consistent
with applicable guidance. In particular:

         All three sites had automated systems for tracking and approving expense vouchers;

         Employees' expense vouchers were submitted for reimbursement in a timely manner
         and contained the necessary approvals and supporting documentation to ensure that
         claimed expenses were appropriate;
                                                   2


     •   With minor exceptions, expense vouchers reflected the use of the appropriate classes
         of air travel and car rental;

     •   Employees at Y-12 and Oak Ridge adhered to the Federal Travel Regulation (FTR)
         per diem rates for reimbursement of meals and lodging expenses. Sandia, which the
         Department exempted from FTR requirements, realized savings over FTR specified
         rates by using "actual cost" methods; and,

     •   The internal audit departments at these sites had also included travel expenses as part
         of their annual allowable cost reviews, a practice that helped ensure that unallowable
         travel costs were not charged to the Department.

We also identified several minor problems and opportunities to strengthen certain internal
controls. For a few trips at each site, claims for reimbursement did not clearly describe the
purpose of travel and certain expenses were not adequately supported or were missing required
justifications. At Sandia, we also identified three trips for which required authorizations for
first class airline accommodations were missing from reimbursement reports. Unless
specifically authorized, the cost of first class airfare is unallowable. In limited instances, we
noted that Sandia travelers did not use the corporate travel agent to purchase airline tickets or
did not use their corporate travel card for all business travel. The use of these contractor
sponsored programs helps employees to, among other things, obtain discounted pricing. In
addition to the minor exceptions mentioned above, we also noted an issue regarding the
management of unused airline tickets at Sandia.

                                      Unused Airline Tickets

To maximize savings, all three sites required employees to purchase non-refundable airline
tickets. Employees were sometimes reimbursed for the cost of these tickets before they
completed their travel. For travel that was later cancelled, Oak Ridge and Y-12 managed and
tracked the unused tickets to ensure they were used on subsequent travel.

Our review of management practices in this area disclosed that Sandia lacked comprehensive
procedures for managing and did not track all unused airline tickets. While Sandia reported that
it had clarified its policy and procedural guidance in this area in response to a 2004 internal
audit, our review demonstrated that additional controls are necessary. To illustrate, the
corporate travel agent at Sandia issued its August 2006 report for all carriers except Southwest
Airlines showing that 424 tickets valued at $181,997 were unused and unexpired. Although the
monthly unused ticket reports were reviewed and e-mails were sent reminding travelers of their
outstanding unused tickets, Sandia did not follow up to determine whether the tickets were
eventually used for official business travel.

Additionally, according to officials at Sandia, travelers used Southwest Airlines for over 50
percent of their travel. No information on outstanding unused or unused expired Southwest
Airlines tickets was provided by the corporate travel agent and Sandia did not have internal
procedures to track these tickets. Given the extent of use of Southwest and the demonstrated
frequency of unused tickets on other airlines, it is likely that the total value of unused tickets for
this carrier could be significant.
                                                 3


SUGGESTED ACTIONS

To address the issues outlined above, we suggest that the:

     1. Managers of the Oak Ridge Office, Y-12 Site Office and Sandia Site Office ensure
        that, for the management contractors under their purview, adequate descriptions of the
        purpose of travel are included in all reimbursement reports and that all expenses
        submitted for reimbursement are adequately supported and include all required
        justifications;

     2. Manager, Sandia Site Office, ensure that Sandia:

         a.    Develops unused airline ticket status reports for all airlines to identify expired
               tickets, and tickets that have been unused or partially used for follow-up and to
               facilitate management of unused airline tickets;

         b.    Strengthens its review and approval of travel reimbursements to ensure
               compliance with corporate requirements such as use of the corporate travel agent
               for travel arrangements and the use of corporate credit cards while in official
               travel status; and,

         c.    Evaluates the adequacy of supporting documentation for all first class travel to
               ensure that costs are authorized and necessary.

Details regarding each of the issues we identified were referred to the contractor for resolution.
Contractor officials told us that they had initiated or completed corrective actions for the
problems identified in this report. Since no recommendations are being made in this report, a
formal response is not required. We appreciate the cooperation of the various Departmental
elements and all the staff at the contractor sites during this effort.

Attachment

cc: Manager, Oak Ridge Office
    Manager, Sandia Site Office
    Manager, Y-12 Site Office
    Acting Chief Financial Officer, CF-1
    Team Leader, Audit Liaison, CF-1.2
    Audit Liaison, MA-70
    Director, Policy and Internal Controls Management, NA-66
    Audit Liaison, SC-67
    Audit Liaison, ORO
    Audit Liaison, Sandia National Laboratories
                                                                                   Attachment


SCOPE AND METHODOLOGY

This review was performed between September 2006 and March 2007 at the Oak Ridge
National Laboratory (Oak Ridge) and BWXT Y-12 (Y-12) in Oak Ridge, Tennessee and the
Sandia National Laboratories (Sandia) in Albuquerque, New Mexico. To accomplish our
objective, we:

   •   Reviewed contractor's travel policies and procedures and interviewed key personnel
       at each site;

   •   Assessed the selected contractors' compliance with the applicable federal guidance,
       internal travel policies and Department of Energy (Department) contracts;

   •   Tested random samples of travel documentation and related reports for Fiscal Year
       2006 at each location; and,

   •   Reviewed reports provided by the Internal Audit departments for the past fiscal year.

We validated the accuracy of computer data on which we relied by tracing it to source
documents. The review was conducted in accordance with generally accepted Government
auditing standards for performance audits and included tests of internal controls and
compliance with laws and regulations to the extent necessary to satisfy the audit objective.
Because our review was limited, it would not necessarily have disclosed all internal
deficiencies that may have existed at the time of our audit. During the audit, we assessed the
Department's compliance with the Government Performance and Results Act of 1993 and
found no performance measures related to travel. We discussed the contents of this letter
with Oak Ridge, Y-12 and Sandia representatives on March 15, 2007. The Department
waived an exit conference.
                                                                    IG Report No. OAS-M-07-03

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall
   message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                U.S. Department of Energy Office of Inspector General Home Page
                                   http://www.ig.energy.gov/
        Your comments would be appreciated and can be provided on the Customer Response Form
